No. 20-303

 

In THE
Supreme Court of the Anited States

UNITED STATES OF AMERICA,

Petitioner,
Vv.

Jost LUIS VAELLO-MADERO,
Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

BRIEF OF THE MEMBERS OF THE
CONGRESSIONAL SHADOW DELEGATION OF
PUERTO RICO AS AMICUS CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,448 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 7, 2021.

 

Wilson-Epes Printing Co., Inc.
